OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/KENYA’S
PEPFAR-FUNDED ACTIVITIES
FOR THE PREVENTION OF
TRANSMISSION OF HIV
AUDIT REPORT NO. 7-615-10-010-P
JULY 29, 2010




DAKAR, SENEGAL

Office of Inspector General


July 29, 2010

MEMORANDUM

TO:        	          USAID/Kenya Mission Director, Erna Kerst

FROM: 	               Regional Inspector General, Gerard Custer /s/

SUBJECT:	             Audit of USAID/Kenya’s PEPFAR-Funded Activities for the Prevention of
                      Transmission of HIV (Audit Report No. 7-615-10-010-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included the comments in their entirety
in appendix II.

Based on actions taken by the mission and supporting documentation provided, final action has
been taken on Recommendation 2, and management decisions have been reached on the other
nine recommendations. Please provide the Audit Performance and Compliance Division in the
USAID Office of the Chief Financial Officer (M/CFO/APC) with the necessary documentation to
achieve final action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International
Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Audit Findings ................................................................................................................. 6 


     Performance Targets Were Inconsistent 

     and Not Always Included in the 

     Performance Management Plan ................................................................................. 6 


     Reported Results Were Inconsistent ........................................................................... 9 


     Reported Results Could Not Be Verified .................................................................. 12 


     Prevention Data Were Not Collected 

     Uniformly ................................................................................................................... 16 


     Site Visits Were Infrequent and Key 

     Meetings Were Undocumented................................................................................. 19 


Evaluation of Management Comments ....................................................................... 21 


Appendix I—Scope and Methodology......................................................................... 23 


Appendix II—Management Comments........................................................................ 25 

SUMMARY OF RESULTS

Enacted in May 2003, the President’s Emergency Plan for AIDS Relief (PEPFAR) was
designed to combat HIV/AIDS throughout the world. PEPFAR was extended in July
2008 when President George W. Bush signed legislation authorizing up to $48 billion
over 5 additional years (2009–2013) to continue the U.S. Government’s global efforts
against HIV/AIDS, tuberculosis, and malaria. PEPFAR is implemented collaboratively by
seven government agencies and departments—USAID; the Departments of State,
Commerce, Health and Human Services, Labor, and Defense; and the Peace Corps.
USAID is one of the lead agencies. In fiscal year (FY) 2009, USAID administered 60
percent of all PEPFAR funds, amounting to about $3.4 billion.

Kenya is one of the original 15 PEPFAR focus countries. According to the Joint United
Nations Programme on HIV/AIDS’ 2008 Report on the global AIDS epidemic, between
1.5 and 2 million Kenyans were living with HIV/AIDS in 2007. This health crisis threatens
Kenya’s stability and its positive contributions to regional affairs.

PEPFAR’s three overarching goals through FY 2013 are to provide treatment for at least
3 million people, prevent 12 million new HIV/AIDS infections, and provide care for
12 million people, including 5 million orphans and vulnerable children. This audit
focused on the goal of prevention, specifically the prevention of sexual transmission of
the virus according to the “ABC” approach: “A” for abstinence, “B” for being faithful, and
“C” for consistent and correct use of condoms. The audit reviewed all six PEPFAR
prevention-related indicators:

1. 	 Number of individuals reached through community outreach that promotes HIV/AIDS
     prevention through abstinence or being faithful.

2. 	 Number of individuals reached through community outreach that promotes HIV/AIDS
     prevention through abstinence.

3. 	 Number of individuals trained to promote HIV/AIDS prevention through abstinence or
     being faithful.

4. 	 Number of individuals reached through community outreach that promotes HIV/AIDS
     prevention through other behavior change beyond abstinence or being faithful.

5. 	Number of individuals trained to promote HIV/AIDS prevention through other
    behavior change beyond abstinence or being faithful.

6. 	 Number of targeted condom service outlets.

USAID’s PEPFAR activities in Kenya are part of the AIDS, Population and Health
Integrated Assistance Program II (APHIA II), managed by the mission’s Office of
Population and Health. As the name implies, APHIA II includes not only the full range of
HIV/AIDS prevention, care, and treatment services, but also activities to address
tuberculosis, child survival, and malaria. Some of these activities are regional, USAID
having established a separate cooperative agreement for each province, carried out by a
primary implementing partner and several subpartners. Each agreement is referred to


                                                                                    1
as APHIA II, followed by the name of the province. Other activities are Kenya-wide,
designed to support the provincial programs in certain technical areas.

Three Programs and Partners Audited
APHIA II Western is implemented in Western Province by PATH and approximately 44
subpartners. HIV/AIDS prevention activities include community group dialogues,
worksite programs, peer and family groups, magnet theater outreach, school programs,
weekly radio broadcasts, and other types of community outreach. Volunteers, referred
to throughout the report as peer educators, organize most of these activities and
document the number of participants (who are reported as persons reached for
indicators 1, 2, or 4 above). PATH trains peer educators, and each peer educator is
reported as a person trained for indicator 3 or 5 above.

APHIA II Coast is implemented by Family Health International (FHI), which works with
approximately 31 subpartners to conduct activities similar to those described above for
APHIA II Western. FHI uses the same system of training volunteers to carry out
prevention activities, but tailors the activities to its target populations in Coast Province.

APHIA II Health Communications and Marketing (HCM) is a Kenya-wide program. The
primary implementing partner is Population Services International (PSI). PSI’s main goal
is to evolve social marketing initiatives to create sustainable, long-term results for
improved health among Kenyans. The first of the four program objectives is to improve
behaviors that help prevent HIV/AIDS. This objective is carried out through activities
that promote abstinence, being faithful, and consistent and correct use of condoms.
One of PSI’s main activities is the social marketing of Trust condoms. This program is
the main source of results for the indicator “number of targeted condom service outlets.”

                                    Table 1. Audited Programs

                                               Budget*
            Program             Partner                                  Program Dates
                                             ($ millions)
      APHIA II Western         PATH             $43.0                 12/19/2006–12/31/2010
      APHIA II Coast           FHI               47.0                  6/7/2006–12/31/2010
      APHIA II HCM             PSI               51.4                  4/1/2007–4/16/2012
     * Amounts include funding for other health activities not specifically related to HIV/AIDS.

Funding
For FY 2008 and FY 2009 funding, USAID/Kenya’s PEPFAR sub-obligations for the
three programs audited totaled $41.1 million. Disbursements against these amounts
totaled $26 million. However, more FY 2009 funding could still be obligated or disbursed
since the mission did not receive FY 2009 funds until September 2009, the last month of
the fiscal year.

The Regional Inspector General/Dakar conducted this audit at USAID/Kenya as part of
the FY 2010 audit plan to answer the following question:

   Have USAID/Kenya’s activities for preventing sexual transmission of HIV achieved
   Agency and overall PEPFAR goals?


                                                                                                   2
Regarding USAID’s prevention goals, available estimates indicate that new HIV
infections have declined, from an estimated 132,000 new adult infections in 20071 to
100,000 new adult infections in 2009.2 Given the scale of the prevention activities
financed by USAID/Kenya, it is possible that USAID activities contributed to this decline.
However, in terms of PEPFAR prevention goals, it is not clear whether USAID-financed
activities have achieved performance targets for the six specific performance indicators
listed on page 1 because performance targets were inconsistent, and reported results
were unreliable and unverifiable. As discussed below, the differences we found were so
large that it is impossible to offer even an educated guess as to whether targets for the
six specific performance indicators were met.

	 Performance targets were inconsistent (page 6). The targets established in the
   mission’s country operational plans and the performance management plans (PMPs)
   sometimes did not agree with each other or with targets used by the implementing
   partners. For example, the FY 2009 APHIA II Western target for individuals reached
   through community outreach that promotes HIV/AIDS prevention through abstinence
   or being faithful was listed as 1,440,000 in the country operational plan, 60,000 in the
   performance management plan, and 30,000 in the partner’s progress report.

    In addition, PSI did not develop a monitoring and evaluation plan as required in its
    agreement and did not establish a PMP until March 2010 (3 years after the program
    started). The mission acknowledged that country operational plan targets are
    outdated and that performance management plans should be updated regularly.

	 The results reported for prevention indicators were inconsistent (page 9).           For
   example, in FY 2009:

    	 FHI reported reaching 206,461 people with abstinence messages, while USAID
       reported 470,012.
    	 FHI reported reaching 1,201,808 people with abstinence or being faithful
       messages, while USAID reported 2,147,545.
    	 FHI reported reaching 786,859 people with behavior-change messages
       promoting methods beyond abstinence or being faithful, while USAID reported
       1,960,619.

    Similar inconsistencies appeared between USAID’s records and the records of the
    other implementing partners. Inconsistencies occurred because USAID or its
    implementing partners updated reports without coordinating with each other.

	 The reported results could not be verified (page 12). The information collected for
   each indicator was not organized in a way that made it possible to verify the results
   reported by the implementing partner or those reported by USAID (only raw data
   were available, not summary information).


1
  The Kenya 2007 HIV and AIDS Estimates prepared by the National AIDS Control Council and 

the National AIDS and STD Control Programme, July 2009. 

2
  United Nations General Assembly Special Session on HIV and AIDS Country Report–Kenya 

2010. 



                                                                                              3
	 Prevention data were not collected uniformly (page 16). Data collection tools and
   reporting methodologies were not synchronized to improve the integrity of reported
   results.

	 Site visits were infrequent, and key meetings were not documented (page 19). The
   Office of Population and Health conducted only two site visits for the APHIA II
   Western Program from December 2006 to September 2009. For APHIA II Coast, the
   office documented only three site visits for FY 2008-09. For all three audited
   programs, the agreement officer’s technical representative documented only 1 of the
   24 quarterly review meetings held during FY 2008-09.

USAID’s inadequate monitoring and evaluation of its HIV/AIDS projects contributed to
the problems identified above (page 15). The mission had only two individuals to
perform this function for a portfolio of over $300 million involving 70 prime implementing
partners.

To address these weaknesses, the audit team recommends that USAID/Kenya:

1. 	 Require that performance targets are established for each indicator and implement a
     system to ensure that the targets are consistently updated and aligned in
     performance management plans and the implementing partners’ progress reports
     (page 8).

2. 	 Obtain the monitoring and evaluation plan from PSI as required in its cooperative
     agreement (page 8).

3. Require
   	       that all changes to partner-reported results be documented and
   communicated, as appropriate (page 11).

4. 	 Prohibit partners from changing results in Kenya’s Program Monitoring System after
     a specified date without first requesting written approval (page 12).

5. 	 Require implementing partners to indicate that data in quarterly reports are not final
     and that final reported results may change significantly (page 12).

6. 	Work with partners to establish a data compilation and filing system that permits
    users to access support for data reported under the PEPFAR prevention indicators
    (page 15).

7. 	 Expand monitoring and evaluation support for the Office of Population and Health
     (page 15).

8. 	 Complete data quality assessments for all of its indicators (page 16).

9. 	Establish a system for collecting, collating, and reporting results for prevention
    indicators that would facilitate verification, and ensure the same system is followed
    by implementing partners (page 18).

10. Require mission officials to (1) document all key meetings and (2) conduct regular
    site visits that include data quality testing and soliciting suggestions to improve the
    mission’s monitoring and evaluation of activities (page 20).


                                                                                         4
Detailed findings appear in the following section. The audit’s scope and methodology are
described in Appendix I.

USAID/Kenya agreed with all 10 recommendations. On the basis of actions taken by the
mission and the documentation provided, final action has been taken on
Recommendation 2, and management decisions have been reached on the other nine
recommendations. USAID/Kenya’s comments appear in their entirety in Appendix II.




                                                                                      5
AUDIT FINDINGS

Performance Targets Were
Inconsistent and Not Always
Included in the Performance
Management Plan
USAID’s Automated Directives System (ADS) 203.3.4.5 states that, for each indicator in
a performance management plan (PMP), the operating unit should set performance
baselines and set targets that can be optimistically but realistically achieved within the
stated timeframe and with the available resources. ADS 203.3.5.1d also states, “When
data collection and analysis methods change, the performance management plan should
be updated.” Furthermore, the Office of the Global AIDS Coordinator, which oversees
the President’s Emergency Plan for AIDS Relief (PEPFAR), adds that, “Regardless of
levels of funding, all programs should be results-oriented with clearly established
targets.”

As shown in Tables 2 and 3, some of USAID’s targets established in its country
operational plans (COPs) and the PMPs for fiscal years (FY) 2008 and 2009 were
significantly different from the targets shown in the quarterly reports of its implementing
partners—Family Health International (FHI) and PATH.

           Table 2. APHIA II* Coast: Comparison of USAID and FHI Targets

                                              2008 USAID           2008       2009 USAID           2009
              Indicators                        Target             FHI          Target             FHI
                                                                  Target                          Target
                                            COP         PMP                  COP        PMP
1. Number of individuals reached through
community outreach that promotes
                                            500,000 1,200,000     575,000   700,000   1,500,000   700,000
HIV/AIDS prevention through abstinence
and/or being faithful
2. Number of individuals reached through
community outreach that promotes            300,000     600,000   346,150   300,000    800,000    347,870
HIV/AIDS prevention through abstinence
3. Number of individuals trained to
promote HIV/AIDS prevention programs           2,000      3,000     2,300    2,000       4,000      3,000
through abstinence and/or being faithful
4. Number of individuals reached through
community outreach that promotes
                                                                   Not
HIV/AIDS prevention through other           700,000 Not given               900,000   Not given   900,000
                                                                   given
behavior change beyond abstinence
and/or being faithful
5. Number of individuals trained to
promote HIV/AIDS prevention through                                Not
                                               1,700 Not given               2,500    Not given     2,500
other behavior change beyond abstinence                            given
and/or being faithful
6. Number of targeted condom service
                                                 100 Not given        237      150    Not given      150
outlets
 *AIDS, Population and Health Integrated Assistance Program II.




                                                                                                        6
                    Table 3. APHIA II* Western:
                    Comparison
          Table 3. APHIA        of USAID
                         II* Western:    and
                                      Comparison of USAID and PATH Targets
                    PATH Targets
                                                  2008 USAID            2008         2009 USAID             2009
                 Indicators                         Target             PATH            Target              PATH
                                                                       Target                              Target
                                                 COP        PMP†                    COP           PMP
1. Number of individuals reached through
community outreach that promotes
                                              15,000     60,000          15,000   1,440,000       30,000     60,000
HIV/AIDS prevention through abstinence
and/or being faithful
2. Number of individuals reached through
                                              Not                       Not                       Not
community outreach that promotes                       Not given                  Not given                Not given
                                              given                     given                     given
HIV/AIDS prevention through abstinence
3. Number of individuals trained to
promote HIV/AIDS prevention programs              200     6,000             200    24,000          6,000      6,000
through abstinence and/or being faithful
4. Number of individuals reached through
community outreach that promotes
HIV/AIDS prevention through other           400,000 3,356,680          400,000     700,000    118,875       118,875
behavior change beyond abstinence
and/or being faithful
5. Number of individuals trained to
promote HIV/AIDS prevention through
                                                2,000   21,372          2,000       2,500         6,000       5,042
other behavior change beyond abstinence
and/or being faithful
6. Number of targeted condom service                                                              Not
                                                   60 Not given              60        70                       500
outlets                                                                                           given
* AIDS, Population and Health Integrated Assistance Program II.
†
    Targets were mistakenly established for the calendar year instead of the USAID fiscal year.

In preparing the COP, the mission sets annual targets for future years. For example, the
FY 2009 COP targets were established during the COP planning process that took place
in 2007. The disadvantage of this process is that targets set so far in advance do not
take into account the most recent years’ results, which in this case would be FY 2008
and 2009 results. Rather, the Sexual Transmission Prevention Interagency Technical
Team developed the targets on the basis of the PEPFAR Coordination Office’s proposed
budget allocation and past performance, which in this case would be fiscal years prior to
FY 2007.

Implementing partners contributed to the technical implementation strategies but not to
target development, which involves procurement-sensitive funding information that
partners were not privy to. As a result, USAID’s partners do not have a say in setting
targets, and in most cases, do not agree with the COP targets. The mission and its
partners sometimes update their targets, but reportedly could not change the targets in
the COP.

The targets established in the PMP were based on current program performance levels
for all indicators, partner feedback, and any additional funds allocated to the program
after approval of the COP. However, the mission did not update its PMP each year, as
required, partly because of an oversight, but also because some mission officials
incorrectly believed that since the PMP was part of the cooperative agreement, it would
require a great amount of work to modify. The initial targets were established at the start
of the AIDS, Population and Health Integrated Assistance Program II (APHIA II) Coast



                                                                                                                  7
and Western Programs in late 2006, but USAID did not update these PMPs until August
2008 and January 2010, respectively. This explains why many of the PMP targets
shown in Tables 2 and 3 were significantly different from the targets in the COP and the
partners’ progress reports.

Also, as shown in the tables, a few of the targets had not been established. The mission
explained that one indicator—Number of individuals reached through community
outreach that promotes HIV/AIDS prevention through abstinence—is a subset of the first
indicator—Number of individuals reached through community outreach that promotes
HIV/AIDS prevention through abstinence and/or being faithful—and was not targeted
separately by PATH. There was no explanation provided for why targets were not
established for the other indicators.

Furthermore, Population Services International (PSI), which implements the APHIA II
Health Communication and Marketing Program, has not developed a monitoring and
evaluation plan as required in its award and did not establish a PMP until March 2010—
3 years after the program began. Although USAID assigned PSI annual targets, PSI’s
quarterly reports did not have targets and did not reference any program-level PEPFAR
indicators. The agreement officer’s technical representative noted that although the
monitoring and evaluation planning process had started, it was never completed
because the mission was still making decisions about the reporting coverage of PSI in
relation to the other APHIA II partners to avoid double counting.

According to the mission, setting targets has been particularly challenging in recent
years because the budget for HIV/AIDS has increased dramatically. From FY 2007 to
FY 2008, the budget jumped from $127.5 million to $237.1 million (86 percent), and the
following year, it increased again to $340.3 million (an additional 44 percent). The
annual process of preparing the COP generally resulted in changes to the timing and the
amount of funds received, directly affecting the scope of each partner’s activities.
Budget increases, strategy changes, and activity changes have all made it difficult for
the mission to remain current with the targets.

Without a common understanding between USAID and its partners as to what the
targets were for prevention indicators, it was impossible for USAID to assess the
partners’ performance. Furthermore, the inconsistency in the targets, as well as in
reported results (discussed later in the report), precluded the audit team from reaching
any conclusions about whether the mission met its goals. The mission agreed that targets
should be updated in the PMPs annually as part of the process of establishing work
plans. Further, to avoid confusion, the mission should ensure that targets set by USAID
are in line with those established by the partners in their reports.

   Recommendation 1: We recommend that USAID/Kenya require that performance
   targets are established for each indicator and implement a system to ensure that the
   targets are consistently updated and aligned in its performance management plans
   and the implementing partners’ progress reports.

   Recommendation 2: We recommend that USAID/Kenya obtain from
   Population Services International the monitoring and evaluation plan required in
   the cooperative agreement.




                                                                                      8
Reported Results
Were Inconsistent
According to ADS 203.3.2.2.b, USAID “should use performance information to assess
progress in achieving results and to make management decisions on improving
performance.” The Office of the Global AIDS Coordinator provided country teams with
guidance addressing the importance of data quality, stating that “quality data are needed
to inform the design of Country Operational Plan activities, to monitor partner
performance, and to set reasonable and achievable targets. In order for targets to be
meaningful and realistic, the quality of the data on which they are based must meet
minimum standards of acceptability.”

USAID’s results recorded in Kenya’s Program Monitoring System (KePMS3) did not
match the results reported by the implementing partners for two of the three programs
reviewed.4 In fact, the results reported by the two partners, FHI and PATH, differed
significantly from those in KePMS, as shown in the Tables 4 and 5.

       Table 4. APHIA II Coast: Comparison of USAID and FHI Prevention Results

                                                             2008 Results            2009 Results
                        Indicator
                                                          KePMS        FHI        KePMS        FHI
    1. Number of individuals reached through
    community outreach that promotes HIV/AIDS              871,297    1,357,880   2,147,545     1,201,808
    prevention through abstinence and/or being faithful
    2. Number of individuals reached through
    community outreach that promotes HIV/AIDS              730,922     862,588     470,012        206,461
    prevention through abstinence
    3. Number of individuals trained to promote
    HIV/AIDS prevention programs through abstinence             85       2,025         112            728
    and/or being faithful
    4. Number of individuals reached through
    community outreach that promotes HIV /AIDS                          Not
                                                          1,083,502               1,960,619       786,859
    prevention through other behavior change beyond                   Reported
    abstinence and/or being faithful
    5. Number of individuals trained to promote
                                                                        Not
    HIV/AIDS prevention through other behavior                 691                     774          6,596
                                                                      Reported
    change beyond abstinence and/or being faithful
    6. Number of targeted condom service outlets             3,853       4,906       3,490          6,155




3
  KePMS is the source for results reported in USAID/Kenya’s annual performance report. KePMS is a
stand-alone Microsoft Access database used in the management, monitoring, and evaluation of HIV/AIDS
treatment and prevention programs supported by PEPFAR. This system reportedly reduces the burden of
reporting and improves the quality of data by standardizing the collection of data. It also allows USAID and
implementing partners to print useful summary reports for program evaluation.
4
  We were unable to include a comparison for APHIA II HCM, the third program, because it did not report
results using program-level PEPFAR indicators.


                                                                                                            9
Table 5. APHIA II Western: Comparison of USAID and PATH Prevention Results

                                                         2008 Results          2009 Results
                     Indicator
                                                       KePMS      PATH      KePMS      PATH
 1. Number of individuals reached through
 community outreach that promotes HIV/AIDS             108,053    202,877   461,517     245,014
 prevention through abstinence and/or being faithful
 2. Number of individuals reached through
                                                                   Not                   Not
 community outreach that promotes HIV/AIDS              93,804              247,856
                                                                 Reported              Reported
 prevention through abstinence
 3. Number of individuals trained to promote
 HIV/AIDS prevention programs through abstinence          429      15,280      347       21,056
 and/or being faithful
 4. Number of individuals reached through
 community outreach that promotes HIV /AIDS
 prevention through other behavior change beyond       813,532    604,344   931,079     568,032
 abstinence and/or being faithful
 5. Number of individuals trained to promote
 HIV/AIDS prevention through other behavior              3,065     25,292     5,633      39,537
 change beyond abstinence and/or being faithful
 6. Number of targeted condom service outlets             245       2,980      137        3,464


In addition, when asked about two PEPFAR results reported by the International Centre
for Reproductive Health (one of FHI’s subpartners), FHI and the subpartner provided
worksheets and lists with figures that differed drastically from those reported by USAID
for both FY 2008 and 2009. For example, the subpartners believed the number of
people reached with other prevention in FY 2009 was 505,360 instead of 286,762, and
the number of service outlets was 440 instead of 1,626. The subpartners responsible for
implementing the activities were unable to explain the inconsistencies.

The results for FY 2008 that appeared in USAID/Kenya’s annual performance report
differed only slightly from the results reported in KePMS. One person interviewed for
this audit believed that these differences resulted from updates made in KePMS after
results were submitted to the Office of the Global AIDS Coordinator through the annual
performance report, while another individual speculated that updates were made to the
annual performance report results but were not updated in KePMS.

Below are a few explanations for the differences in reported results:

Results Reported by Partners Were Updated but Not Communicated to All
Stakeholders – Implementing partners prepared quarterly reports containing results for
the quarter or for the year to date and provided these results to USAID/Kenya through
KePMS as follows: Implementing partners processed data offline in KePMS and sent
them to the system developer, Macro International. On receiving the data from
implementing partners, the Macro team performed a preliminary “cleaning” process,
checking the data for double counting and comparing them with previous years’ data.
Macro then consolidated and posted the data on the KePMS Web site, where they were
available for downloading by the mission.

USAID/Kenya officials said they conducted in-depth data cleaning for every
implementing partner by program area and resolved any anomalies they detected in the
downloaded data through discussions with the implementing partner. The officials said


                                                                                                  10
they discussed all data queries with the appropriate partner, and after reaching
agreement on what needed to be done, advised the partner to revise the data and
resend the dataset to Macro International. USAID/Kenya officials said they did not make
any modifications to the submitted dataset, reserving this role for implementing partners.
Moreover, according to the mission, neither USAID nor Macro had access rights to the
data entry module in KePMS and could not make any changes. Therefore, USAID
officials stated that partners may have made changes without communicating them to
USAID.

The audit team found that implementing partners were relying on data from their own
quarterly reports rather than on data from KePMS. When the audit team asked about
results for a given indicator, partners referred to their own reports. Partners were not
able to explain the exact differences between their reports and the KePMS data.

Not communicating updates to reported results may also be a problem at the lower
levels. For example, the PSI manager for the Western Province speculated that
changes were being made to her reported figures at PSI’s head office in Nairobi without
her knowledge.

The HIV/AIDS program relies on accurate data to demonstrate progress toward goals.
However, because of the inconsistencies in the results reported, the mission’s results for
HIV/AIDS activities may not accurately reflect USAID’s achievements in Kenya. To
ensure that USAID/Kenya reports accurate and reliable data to the Office of the Global
AIDS Coordinator and to improve the integrity of the reporting process, we make the
following recommendation.

   Recommendation 3: We recommend that USAID/Kenya require that all
   changes to partner-reported results be documented and communicated, as
   appropriate.

KePMS May Have Contributed to Reporting Errors – The audit team learned that one
implementing partner experienced numerous glitches in KePMS after regular system
updates. For example, at the time of the audit, the implementing partner was not able to
print accurate quarterly summary reports. The audit team observed that the number the
partner entered for one indicator unexplainably changed to a different number when the
system produced output reports for that indicator.          The implementing partners
interviewed all confirmed that the technical support team for the system was responsive
and usually fixed glitches quickly. Nevertheless, even if quickly fixed, these glitches
could contribute to erroneous data reports generated by KePMS. Officials also
acknowledged that, as with any new system, there are opportunities for user errors. To
address this issue, the mission has provided KePMS training for all users, and the
number of user errors has reportedly declined.

Furthermore, the audit team learned that data could be retroactively changed in KePMS
by either USAID/Kenya or the implementing partners after it had been reported for that
period. If any changes made were not uploaded to the central database, the results
would no longer match.

Because the team responsible for KePMS technical support is aware of the glitches
described above and has reportedly resolved such problems, we are not making a
recommendation to fix the system errors. However, to prevent possible future


                                                                                       11
inconsistencies between partner and USAID KePMS data, we make the following
recommendation.

   Recommendation 4: We recommend that USAID/Kenya prohibit partners from
   changing results in Kenya’s Program Monitoring System after a specified date
   without first requesting written approval.

Results Were Reported Late – Some results were reported late and were not included
in the partners’ quarterly reports. The mission explained that there will always be some
level of underreporting in either KePMS or quarterly progress reports because of
logistical challenges that partners and government counterparts face in receiving
monthly reports from subpartners. Underreporting affected both facility- and community-
based results. Many activities were carried out by subpartners that did not always report
results in time because the subpartners were based in hard-to-reach areas and had
logistical problems. However, after implementing partners issued the quarterly reports to
USAID/Kenya, the subpartners provided their results, and the updates may have been
made offline and not uploaded by Macro or communicated to USAID. The mission
agreed that, at a minimum, the partners should disclose that the reported results are
incomplete. Underreporting likely contributed to some, but not all, of the differences
between the implementing partners’ reports and the KePMS data.

   Recommendation 5: We recommend that USAID/Kenya require implementing
   partners to indicate that data in quarterly reports are not final and that final
   reported results may change significantly.

Reported Results Could
Not Be Verified
To measure performance effectively and make informed management decisions,
missions must ensure that quality data are collected and made available. USAID
provides its assistance objective teams with extensive guidance to help them manage
for improved results. Among this guidance is ADS 203.3.5.2, which states that the
USAID mission/office and assistance objective teams should be aware of the strengths
and weaknesses of their data and the extent to which the data’s integrity can be trusted
to influence management decisions. According to ADS 203.3.5.1, “Data Quality
Standards,” performance data should meet data quality standards for validity, integrity,
precision, reliability, and timeliness, and missions should take steps to ensure that
submitted data are adequately supported. The Office of the Global AIDS Coordinator
further cautions that prevention data are particularly prone to double counting and
advises added oversight.

Of results reviewed, neither those reported by USAID nor those reported by
implementing partners could be verified. While attempting to verify these results, the
audit team noted the following issues related to reporting of results.

FHI – Kenya’s Girl Guide Association (KGGA), a subpartner of FHI, conducted peer
education. KGGA’s reported results for the one district reviewed contained the following
errors:




                                                                                      12
	 For 1 of 17 schools in this particular district, the KGGA administrator entered the
   number 5 in the Excel worksheet cell for number of boys reached; the number should
   have been 56, as recorded in the source document.

	 For another school, the KGGA administrator entered the number of students reached
   in the wrong cells and inadvertently reported 0 students.

	 For 8 of 17 schools, KGGA double reported some student beneficiaries. The
   reporting form used by KGGA has one section for entering students in grades 4–7
   and another section for students in grades 1–3 and 8. However, the guide leaders
   who completed the forms and the KGGA administrator reported dozens of
   beneficiaries twice by including students in grades 4-7 in both sections.

KGGA did not cross-check the administrator’s input, and FHI’s monitoring and evaluation
team failed to identify these errors.

The audit discovered that the Anglican Church of Kenya (another subpartner of FHI)
made multiple typographical and mathematical errors in calculating how many people it
reached through community outreach that promotes HIV/AIDS prevention through
abstinence and/or being faithful. Nobody at the church or FHI was aware of these errors
until the audit team’s visit.

PATH – At the APHIA II Western office, where PATH is the primary implementing
partner, the audit team was not able to trace reported results on the six PEPFAR
indicators to supporting documentation. The supporting documentation for these results
consisted of raw data sheets rather than summary sheets. For example, PATH filed
thousands of reporting sheets used to support hundreds of thousands of people reached
through community outreach by month and by subpartner. To verify the reported data
for the indicator “Number of individuals reached through community outreach that
promotes HIV /AIDS prevention through other behavior change beyond abstinence and
or/being faithful,” the audit team would have had to look through 12 monthly files for
each of the 44 subpartners. Then, in each of the files, the audit team would have had to
add various numbers from the reporting sheets. For some subpartners, this could have
meant hundreds of sheets. Similar documentation challenges existed for both FHI and
PSI.

PSI – PSI had difficulty supporting results for APHIA II Health Communications and
Marketing (HCM). When asked about figures in PSI’s quarterly reports, the manager in
the Western Province was unable to demonstrate how the head office in Nairobi had
arrived at the reported results. She speculated that perhaps the head office was
removing some double counting from the data that she was providing.             She
acknowledged that she should have been more familiar with the indicator targets and
results for PSI’s activities in the Western Province.

PSI had difficulty supporting results for the indicator “Number of condom outlets.” PSI
was the main contributor to this indicator through its marketing of a brand of condoms
known as “Trust” (pictured on the following page). PSI used monthly data from an
organization called the Research Institute to estimate the number of Kenyan businesses
selling Trust condoms. The reports from the Research Institute showed the percentage
of retailers nationwide that were selling Trust condoms.           PSI multiplied these
percentages by the total estimated number of retailers in Kenya to determine the number


                                                                                     13
of retailers selling Trust condoms. When the audit team used the same method to
calculate the number of condom outlets, the results were not the same as those reported
in KePMS. For example, for FY 2009, KePMS showed 85,076 condom outlets for
APHIA II HCM, while the audit team’s recalculation showed 92,628 (an understatement
of 7,552). For FY 2008, KePMS showed 92,651 while the audit team’s calculation
showed 70,342 (an overstatement of 22,309 outlets). PSI could not explain the
differences.




    A Nairobi retail store displays PSI’s Trust condoms, shown in April 2010. (Photo by OIG)

Various factors contributed to the problems. The mission and its implementing partners
and subpartners all reported that the results for prevention indicators related to numbers
of people reached were based on estimates. Consequently, the results were much more
difficult to support than those for facility-based indicators such as the number of people
taking medication. Other reasons for unsupported results are provided below.

The Reporting Process Was Too Complicated – The audit team found that the
reporting process was lengthy, increasing the likelihood of double counting and data-
entry errors. In general, as illustrated on the following page, a volunteer peer educator
completes one form. A zone leader, who may also be a volunteer, compiles this
information and completes another form. District coordinators compile the sheets
completed by zone leaders and submit the data to the subpartner office’s administrator
for entry into a Microsoft Excel spreadsheet. This spreadsheet is then e-mailed to the
implementing partner’s monitoring and evaluation team.          The prime implementing
partner must consolidate aggregated data from all subpartners before data are entered
into KePMS. The aggregation described above is tedious, often done using paper,
pencil, and calculator, and the audit team identified numerous errors in these types of
calculations. The results are finally entered into KePMS and submitted to USAID for
review. In addition, these community-based activities are also reported to the Kenyan
National AIDS Control Council.



                                                                                               14
                                 The Reporting Process


      Thousands of peer                Zone leaders collect            District
   educators (PEs) conduct             the forms from PEs,             coordinators
   outreach activities, count              summarize the               compile zone
    participants, and record             number of people              leader data
   counts on forms provided           reached for each type            and report
     by the implementing              of activity, and provide         them to the
    partner that are sent to              the forms to the             subpartner
      their zone leaders.               district coordinator.          office.


                   Subpartners compile data             IPs compile data
                  from zones and report data            from subpartners
                    to implementing partners            and enter data in
                             (IPs).                         KePMS.


Similar processes have been developed for other outreach activities such as worksite
outreach, theatre group outreach, one-on-one sessions, etc. Because every step of the
lengthy and complex reporting process generated records, the number of supporting
documents increased exponentially. Since USAID’s partners and subpartners generally
did not have summary schedules, we were not able to verify any results.

    Recommendation 6: We recommend that USAID/Kenya work with partners to
    establish a data compilation and filing system that permits users to access
    support for data reported under the President’s Emergency Plan for AIDS Relief
    prevention indicators.

Monitoring and Evaluation Were Insufficient – USAID and its implementing partners
failed to realize that results (and targets) that were reported quarterly were inconsistent
and could not be readily supported. Because of the heavy workload associated with
managing annual PEPFAR funding levels of over $300 million going to over 70 prime
implementing partners, USAID’s two monitoring and evaluation (M&E) officers were
unable to adequately monitor PEPFAR programs and relied heavily on implementing
partners for M&E. For example, the M&E staff is required to participate in other national
activities and meetings and also carry out the responsibilities of the agreement officer’s
technical representative. USAID concurred that additional M&E staff should be added to
support the Office of Population and Health, particularly with regard to its HIV/AIDS
activities. This function is particularly important because some of the subpartners—­
especially the small, local ones—need more capacity building and experience.

    Recommendation 7: We recommend that USAID/Kenya expand monitoring
    and evaluation support for the Office of Population and Health.

Data Quality Assessments Were Not Performed – Although the mission has
developed a standard data quality assessment tool and has completed data quality
assessments for other indicators, it has not yet conducted assessments for the
HIV/AIDS prevention indicators because it acknowledges that progress on them is



                                                                                        15
difficult to measure. As reported above, verifying results for one indicator would have
required searching for multiple numbers on hundreds of sheets in hundreds of different
files. Consequently, it was impossible for the audit team to verify the reported results in
some cases. Furthermore, neither USAID/Kenya nor the partner’s M&E team could
support reported results. This lack of verification likely contributed to the problems with
inconsistent reporting.

Reporting results that are inaccurate or that lack needed context can undermine
USAID’s credibility and impair USAID’s ability to secure the resources it needs to
accomplish its mission. Internal controls for results reporting were not sufficiently
reliable to ensure that reported service provider results were (1) valid, (2) attributable to
the mission’s program, (3) accurate and supported, and (4) accurately summarized prior
to being reported to the mission. The likelihood of data quality problems such as those
described above can be minimized if data quality assessments are adequately
completed.

   Recommendation 8: We recommend that USAID/Kenya complete data quality
   assessments for all of its HIV/AIDS indicators.

Finally, the reporting process is more focused on reporting monthly or quarterly results
than on annual results. Agreements reviewed at USAID/Kenya did not have annual
reporting requirements, so PSI did not report any annual results. Nonetheless, other
partners reported annual results in their fourth quarter report for each year. When
annual results were compiled, FHI used the calendar year, which does not correspond to
USAID’s fiscal year.

As mentioned earlier, the results that are being reported by the mission and its partners
are probably not entirely accurate because of uncoordinated updates that are made after
submission due dates. Furthermore, these incorrect results were not adequately
supported. Therefore, the actual results achieved by USAID/Kenya’s prevention
program could not be verified, and stakeholders could be misled about USAID’s and its
partners’ achievements. The mission added that, when in doubt, it reports figures more
conservatively.

Prevention Data Were Not
Collected Uniformly
USAID’s Automated Directives System, Section 203.3.5.1d states, “Data should reflect
stable and consistent data collection processes and analysis methods from over time.
The key issue is whether different analysts would come to the same conclusions if the
data collection and analysis processes were repeated.”

USAID’s partners and subpartners do not have a uniform system for collecting and
supplying data. Each of the implementing partners that the audit team visited used
different methods to collect data. Some of these tools required peer educators to report
the number of new people reached separately, while others asked only for the number of
people present at outreach events.

For example, the audit team discovered that implementing partners were not all using
the same system to count the numbers of people reached. Although USAID/Kenya has


                                                                                          16
made it clear that the partners should be counting people as “reached” only the first time
they attend an outreach event, not all the partners were using this approach. Some
subpartners reported that they counted the number of outreach participants who were
present for the first time through observation or by having first timers raise their hands.
The volunteers conducting the outreach reported this number as “people reached” and
the total participants as “people contacted.” Other subpartners reported that they simply
took the total number of people contacted in a month and subtracted the number of
people contacted the previous month. The difference was assumed to be the new
people reached. However, one subpartner reported that it did not report the number of
people reached separately from the number of people contacted. As a result, if the
same 10 people attended 3 outreach events, they would be reported as 30 people
reached, which is contrary to the policy of counting people only the first time they attend.

Other examples concerned results for training and theater outreach. Some partners
likely considered people who have received mentorship, continuing medical education,
or updates as people trained, while the indicator is meant only for those who have
completed formal training based on a national curriculum. For counting the number of
people reached through theater group outreach, sometimes partners assigned an
individual to count new viewers and repeat viewers; sometimes partners just recorded
an estimate.

The problems with data collection had numerous causes as described below. These
further explain why the mission and its partners have experienced difficulty in supporting
their results.

	 While the Office of the Global AIDS Coordinator has provided an indicator reference
   guide, it is still not specific enough to ensure that all partners are uniformly counting
   the number of people reached. The office has periodically changed indicators or
   changed the way they are worded and measured. For example, the indicator for the
   number of people reached through mass media, a critical one for APHIA II HCM, was
   dropped. While major indicator revisions were introduced for FY 2008 and FY 2010
   reporting, discussions about possible changes and actual adjustments occur
   continually.

	 The partners and subpartners worked more closely with other indicators and were
   not as concerned about the PEPFAR prevention indicators. In fact, the PEPFAR
   indicators did not even appear in PSI’s work plan and reports. For example, PSI’s
   quarterly report referred to training for bar owners, partners, community-based
   organizations, health care providers, community health workers, youth leaders, and
   others. It would be difficult for independent observers to determine which types of
   training should be reported under PEPFAR and under which indicator. Similarly,
   PATH’s FY 2010 work plan discussed a variety of indicators by activity type, but it did
   not specifically refer to the six PEPFAR prevention indicators. However, past results
   and targets were clearly set for some of the other indicators.

   Confusion also exists for reporting on the three prevention indicators that track
   numbers of people reached. FHI’s M&E specialist explained that, to arrive at the
   number of people reached through outreach events that promote HIV prevention
   through other behavior change beyond abstinence and or/being faithful, one had to
   add the following results together:



                                                                                         17
   	 Number reached by materials and information through outreach and peer
      education activities.

   	 Number reached under community outreach (peer education activities)

   	 Number reached through group sessions

   	 Number reached by one-on-one sessions

   	 Number reached through community outreach events that promote HIV
      prevention through other behavior change beyond abstinence (stigma reduction)

   Although FHI reported results for PEPFAR indicators, its subagreements and M&E
   plans with the four subpartners visited did not specifically refer to PEPFAR
   indicators. For example, the International Centre for Reproductive Health M&E plan
   listed 12 indicators, but it is unclear how these indicators relate to the PEPFAR
   indicators, if at all.

   The two managers of PSI’s activities in the Western and Coast Provinces confirmed
   that they did not work closely with the PEPFAR indicators. They did not report
   specifically on PEPFAR indicators and explained that reporting was done by their
   head office in Nairobi. In fact both managers believed that PSI’s new activity of
   distributing basic care packages to beneficiaries from various facilities was a
   prevention activity. However the audit team later learned that this activity contributed
   to other indicators.

	 Finally, the mission believed that the PEPFAR indicators for prevention did not
   adequately measure the impact of its prevention activities. Even before the audit
   began, the mission acknowledged that the prevention indicators were based on
   estimates. USAID/Kenya reported that it, as well as the Office of the Global AIDS
   Coordinator, provided definitions for the indicators and guidelines for estimating the
   results. However, the audit team noted that partners were reporting results
   inconsistently using different methods, and the mission agreed that this was
   happening. The mission has already accepted the weaknesses in reporting on these
   indicators and is more enthusiastic about PEPFAR’s new prevention indicators,
   which were to be used starting in FY 2010.

The audit team believes that the lack of uniformity in the data collection process among
USAID/Kenya’s implementing partners contributed to the problems described in the
previous findings (inconsistency in reported results and difficulty supporting these
results). Furthermore, if reported results represent different information for each partner,
the consolidated results will not be reliable for making management decisions.

   Recommendation 9: We recommend that USAID/Kenya establish a uniform
   system for collecting, collating, and reporting results for prevention indicators that
   would facilitate verification and ensure that the same system is followed
   consistently by all implementing partners.




                                                                                            18
Site Visits Were Infrequent
and Key Meetings Were
Undocumented
According to USAID’s ADS 202.3.6, monitoring the quality of key outputs is a major task
of USAID officials. An integral part of this monitoring activity is timely and adequate
documentation of pertinent findings and lessons learned. This is recognized in both the
Government Accountability Office’s Standards for Internal Control in the Federal
Government and in ADS 596.3.1c, which require appropriate documentation of
transactions and internal controls. Consequently, sufficient monitoring visits and
complete and timely documentation of key meetings are necessary for both good
internal control and effective performance management.

Infrequent, Undocumented Site Visits – The audit team found that the Office of
Population and Health had conducted only two site visits for the APHIA II Western
Program since its inception in December 2006. For APHIA II Coast, only three site visits
were formally documented in trip reports (one for each fiscal year from FY 2008 to
FY 2010). In the Audit of USAID/Kenya’s PEPFAR-Funded Activities and Commodities
for the Prevention of Mother-to-Child Transmission of HIV, dated August 17, 2009,
another audit team observed that USAID Kenya’s Office of Population and Health was
not adequately documenting its site visits. The audit team observed that the mission has
made improvements in documentation of site visits, but the Office of Population and
Health acknowledged that time constraints have minimized the number of visits.
Although the Office of Population and Health reported having regular contact with these
implementing partners, officials rarely conducted or documented formal site visits to
monitor activities and verify prevention-related results. For example, no trip reports were
provided for the APHIA II HCM Program.

Without active monitoring through regular site visits and data verification, the mission did
not always have reasonable assurance that data used for performance-based decision
making and for reporting were valid and reliable. A program to monitor data quality with
regular site visits could have identified and prevented many of the problems of data
reliability identified in this report.

While the mission has developed a standard reporting tool for site visits, the mission still
has not conducted site visits frequently.

Undocumented Meetings – The audit team further observed that the agreement
officer’s technical representative for the three APHIA II programs that were audited did
not adequately document quarterly review meetings that were held with implementing
partners. These quarterly meetings were normally held at USAID/Kenya, but were
sometimes held in the field at the implementing partners’ offices. The meetings focused
on discussing the partners’ performance over the quarter against the program targets,
reviewing the quarterly report, and addressing challenges and successes in program
implementation. When the meetings were held in the field, the agreement officer’s
technical representative usually added on site visits to have firsthand observation of
program implementation. The audit team found that, for the three programs selected,
only 1 of the 24 quarterly review meetings held during FY 2008 and FY 2009 had been
documented.



                                                                                         19
According to mission officials, technical representatives did not document quarterly
review meetings because of competing priorities, large workloads, and time constraints.
The two technical representatives for the three programs audited were also responsible
for several other PEPFAR programs and activities. These other responsibilities limited
the time available for documenting meetings.

Inadequate documentation of quarterly review meetings can hinder both performance
management and internal control. Important issues raised in the meetings may not be
shared effectively with other mission officials, and corrective action may be delayed or
overlooked. Moreover, without documentation, it is difficult to confirm that adequate
oversight is taking place. For example, mission officials and partner staff explained that
quarterly reports were thoroughly reviewed, yet our audit revealed inconsistencies
between what was reported by the partners and what was reported by the mission. If
the meetings had been documented and the discussions disseminated to all involved
parties, the mission may have been able to avoid the inconsistencies between partner-
and mission-reported targets and results. The mission also agreed that key meetings
should be documented in the program management files. Accordingly, we are making
the following recommendation.

   Recommendation 10: We recommend that USAID/Kenya require mission officials
   to (1) document all key meetings and (2) conduct regular site visits which include
   data quality testing and soliciting suggestions to improve the mission’s monitoring
   and evaluation of activities.




                                                                                       20
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Kenya agreed with all 10 recommendations in the draft report. In preparing the
final report, the Regional Inspector General/Dakar (RIG/Dakar) carefully considered
management’s comments and has addressed the two general comments raised by the
mission in the final report. The evaluation of management comments is shown below.

Recommendation 1. USAID/Kenya agreed with the recommendation and intends to
ensure that the yet-to-be awarded APHIAPlus agreements will have targets for each
indicator. PMPs will be living documents that will be updated regularly and modified as
needed. In addition, a discussion of targets will be included in quarterly meetings with
implementers. The mission expects to complete these actions by March 2011.
Accordingly, a management decision has been reached for this recommendation.

Recommendation 2. USAID/Kenya agreed with the recommendation and has obtained
from Population Services International the monitoring and evaluation plan. RIG/Dakar
reviewed the plan and agrees that it constitutes final action for this recommendation.

Recommendation 3. USAID/Kenya agreed with the recommendation and intends to
develop and disseminate to all partners by November 2010 a new communiqué, Results
Management Guidelines, describing how to make and communicate changes to reported
results.   Accordingly, a management decision has been reached for this
recommendation.

Recommendation 4. USAID/Kenya agreed with the recommendation and, as stated
above, intends to develop and disseminate to all partners by November 2010 guidelines
that will communicate this prohibition. Accordingly, a management decision has been
reached for this recommendation.

Recommendation 5. USAID/Kenya agreed with the recommendation and intends to
send out an official communication to all partners by November 2010 on the need to
indicate that data in quarterly reports are not final and that final reported results may
change significantly. The mission will also emphasize this requirement at quarterly
review meetings and document it in meeting minutes. Accordingly, a management
decision has been reached for this recommendation.

Recommendation 6. USAID/Kenya agreed with the recommendation and will remind
partners of their responsibility to establish a data compilation and filing system that
permits users to access supporting documents for data reported under the PEPFAR
prevention indicators.    In addition, technical representatives of agreement and
contracting officers will conduct spot checks during monitoring visits to ensure
compliance. The target date for completion is November 2010. Accordingly, a
management decision has been reached for this recommendation.




                                                                                      21
Recommendation 7. USAID/Kenya agreed with the recommendation and will explore
possibilities of increasing monitoring and evaluation support functions by June 2011.
Accordingly, a management decision has been reached for this recommendation.

Recommendation 8. USAID/Kenya agreed with the recommendation and is currently in
the process of designing descriptions for national monitoring and evaluation programs
that could include data quality assessments for all HIV/AIDS indicators. The target date
for completion is November 2010. Accordingly, a management decision has been
reached for this recommendation.

Recommendation 9. USAID/Kenya agreed with the recommendation and will document
by June 2011 the existing system for collecting, collating, and reporting prevention
indicators and share this with all prevention partners. Accordingly, a management
decision has been reached for this recommendation.

Recommendation 10.        USAID/Kenya agreed with the recommendation and will
document all quarterly review meetings with partners. In addition, the mission is in the
process of developing a field monitoring tool that includes limited data quality testing on
selected indicators. The target date for completion is June 2011. Accordingly, a
management decision has been reached for this recommendation.




                                                                                        22
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Dakar conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions, based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The objective of the audit was to determine
whether USAID/Kenya’s HIV/AIDS activities achieved their main goals.

In planning and performing the audit, the audit team assessed management controls
related to management review, proper execution of transactions and events, and
performance targets and indicators. Specifically, we reviewed and evaluated the
following:

   Country operational plans for fiscal years (FY) 2008, 2009, and 2010

   Performance management plans

   Certification required under the Federal Managers’ Financial Integrity Act of 1982

   Implementing partner agreements

   Actual performance results

   Data quality assessments

   Financial reports

We interviewed key USAID/Kenya personnel, implementing partner staff, beneficiaries,
and Kenyan government health officials. We conducted the audit at USAID/Kenya and
at the activity sites of implementing partners in three of Kenya’s eight provinces
(Eastern, Western, and Coast). Audit fieldwork was conducted at USAID/Kenya from
April 6 to April 23, 2010, and covered selected activities that took place in FY 2008 and
2009.

During FY 2008 and 2009, USAID/Kenya’s HIV/AIDS program had agreements with
several partners. We focused on three of the four largest agreements to implement
USAID/Kenya’s prevention-related programs. (See the table on the following page.)

For FY 2008 and FY 2009 funding, USAID/Kenya’s PEPFAR sub-obligations for the
three programs audited totaled $41.1 million. Disbursements against these amounts
totaled $26 million. However, more FY 2009 funding could still be subobligated and/or
disbursed since the mission did not receive FY 2009 funds until September 2009, the
last month of the fiscal year.




                                                                                   23 

                                   HIV/AIDS Program Agreements

                                                                 Estimated      Program     Program
           Activity Name                 Partner Name
                                                                  Budget       Start Date   End Date
    APHIA II Health                Population Services
                                                                 $51,400,000    4/1/2007    4/16/2012
    Communications and Marketing   International (PSI)

                                   Program for Appropriate
    APHIA II Western                                             $43,000,000   12/19/2006   12/31/2010
                                   Technology in Health (PATH)
                                   Family Health International
    APHIA II Coast                                               $47,000,000    6/7/2006    12/31/2010
                                   (FHI)


Methodology
To answer the audit objective, we reviewed activities implemented by the three selected
implementing partners, as well as the PEPFAR prevention indicators reported by
USAID/Kenya in FY 2008 and 2009. We also reviewed available agreements, progress
reports, and work plans of these implementing partners. We reviewed applicable laws
and regulations and USAID policies and procedures pertaining to USAID/Kenya’s
HIV/AIDS program, including the Federal Managers’ Financial Integrity Act of 1982
certification and ADS Chapters 202 and 203.

We interviewed program and monitoring and evaluation staff at USAID/Kenya as well as
at the Nairobi offices of PATH, FHI, and PSI. We also visited PATH and PSI field offices
in Kakamega and the FHI field office in Mombasa to interview program and monitoring
and evaluation staff and to review supporting documentation for the results reported on
the PEPFAR prevention indicators. Additionally, we interviewed staff and reviewed
supporting documentation at three of PATH’s largest APHIA II Western subpartners and
at four of FHI’s largest APHIA II Coast subpartners. We also interviewed APHIA II
Evaluation implementing partner staff and one Government of Kenya Ministry of Health
official. We conducted these interviews, documentation reviews, and site visits to
determine how prevention activities were being implemented, how this implementation
was being documented, and whether reported results were accurate.

Finally, we performed site visits as follows:

      Two APHIA II HCM prevention activities in Eastern Province
      Three APHIA II HCM prevention activities in Western Province
      Four APHIA II Western prevention activities
      Three APHIA II Coast prevention activities

During these site visits, we observed activities in progress, interviewed individuals who
were conducting the activities, and interviewed program beneficiaries. Because of the
large number of activities and the extensive geographical dispersion of the sites, a
statistical sample was not possible. Therefore, a judgmental sample was selected, and
the results of the sample cannot be projected to the universe of all activities on a
statistical basis. However, we believe that our work provides a reasonable basis for our
conclusions because the sample consisted of sites that (1) were located in Eastern,
Western, and Coast Provinces where the three audited programs were being
implemented, (2) included a representative sample of the wide variety of prevention
programs being implemented, and (3) involved significant subpartners.


                                                                                                    24
                                                                             APPENDIX II 




MANAGEMENT COMMENTS




To:            Gerard Custer, Regional Inspector General, Dakar, Senegal

From:          Erna Kerst, Mission Director, USAID/Kenya

Date:          July 13, 2010

Subject:       Audit of USAID/Kenya’s PEPFAR-Funded Activities for the Prevention of
               Transmission of HIV (Audit Report No. 7-615-10-00X-P) – June 10, 2010



This memorandum transmits USAID/Kenya’s management response on the subject
audit report (Report No. 7-615-10-00X-P) regarding USAID/Kenya’s HIV prevention
program. As the audit report noted, prevention programs, targets and outcomes are
among the most difficult to monitor and evaluate due to the fact that much of the
monitoring is based on estimates, and that there is such a wide range of project
implementation scale, from mass media campaigns to small community group
activities. We understand that the USAID prevention audit effort involves multiple
countries, and we look forward to seeing best practices being shared on USAID
evaluation of the impact of its HIV/AIDS prevention efforts under PEPFAR programs.

Our management response is presented below:

Recommendation No. 1: “We recommend that USAID/Kenya ensure that performance
targets are established for each indicator and implement a system to ensure that the
targets are consistently updated and aligned in its performance management plan and
the implementing partners’ progress reports.”

Management Comments: The mission agrees with the recommendation. In the yet-to­
be awarded APHIAPlus (the newest phase of the health strategy) agreements,
USAID/Kenya will ensure that the PMPs contain targets for each indicator. PMPs will
not be included in the cooperative agreement, but will rather be living documents that will
be updated regularly and modified as needed to ensure flexibility and responsiveness to
programmatic changes. As part of this effort, all A/COTRs will ensure that the PMP
review vis-à-vis targets are a standing agenda in all partner quarterly meetings. The
target date for completion of these actions is March 2011.

Recommendation No. 2: “We recommend that USAID/Kenya obtain from
Population Services International the Monitoring and Evaluation Plan required in the
cooperative agreement.”


                                                                                    25 

Management Comments: The mission agrees with the recommendation. As
evidenced by Attachment 1, the mission confirms that PSI has now submitted its M&E
Plan to USAID/Kenya. We consider the recommendation closed.

Recommendation No. 3: “We recommend that USAID/Kenya require that all changes
to partner-reported results be documented and communicated, as appropriate.”

Management Comments: The mission agrees with the recommendation. The Office of
Population and Health will develop and disseminate to all partners a new communiqué,
Results Management Guidelines, describing how to make changes, and procedures for
communicating the changes to partner reported results in KePMS. Secondly, the
mission will work with KePMS system developer to explore possibilities of including
functionality for notifying the mission every time partners update their results. The target
date for completion of this action is November 2010.

Recommendation No. 4: “We recommend that USAID/Kenya prohibit partners from
changing results in Kenya’s Program Monitoring System after a specified date without
first requesting written approval.”

Management Comments: The mission agrees with the recommendation. The Results
Management Guideline document that is described in response to recommendation No.
3 will communicate to the partners the prohibition. The target date for completion of this
action is November 2010.

Recommendation No. 5: “We recommend that USAID/Kenya require implementing
partners to indicate that data in quarterly reports are not final and that final reported
results may change significantly.”

Management Comments: The mission agrees with the recommendation. The Office of
Population and Health will send out an official communication to all partners on the need
to adhere to this requirement. In addition, the mission will ensure that this is emphasized
and documented in all quarterly review meetings’ minutes. The target date for
completion of this action is November 2010.

Recommendation No. 6: “We recommend that USAID/Kenya work with partners to
establish a data compilation and filing system that permits users to access support for
data reported under the PEPFAR prevention indicators.”

Management Comments: The mission agrees with the recommendation. This is a
weakness in partners’ reporting systems. The Office of Population and Health will remind
partners of their responsibility to establish a data compilation and filing system that
permits users to access supporting documents for data reported under the PEPFAR
prevention indicators. In addition, the respective A/COTRs will conduct spot checks on
partners during monitoring visits to ensure compliance. The target date for this action is
November 2010.

Recommendation No. 7: “We recommend that USAID/Kenya expand monitoring and
evaluation support for the Office of Population and Health.”

Management Comments:           The mission agrees with the recommendation and will


                                            26 

explore possibilities of increasing M&E support functions through various means. The
target date for this action is June 2011.

Recommendation No. 8: “We recommend that USAID/Kenya complete data quality
assessments for all of its HIV/AIDS indicators.”

Management Comments: The mission agrees with the recommendation and is
currently in the process of designing program descriptions for national monitoring and
evaluation programs that could include activities such as DQAs for all HIV/AIDS
indicators. The target date for completion of this action is November 2010.

Recommendation No. 9: “We recommend that USAID/Kenya establish a uniform
system for collecting, collating, and reporting results for prevention indicators that would
facilitate verification and ensure that the same system is followed consistently by all
implementing partners.”

Management Comments: The mission agrees with the recommendation. The Office of
Population and Health will document the existing system for collecting, collating, and
reporting prevention indicators and share this with all prevention partners. The target
date for completion of this action is June 2011.

Recommendation No. 10: “We recommend that USAID/Kenya require mission officials
to (1) document all key meetings and (2) conduct regular site visits which include data
quality testing and suggestions to improve the mission’s monitoring and evaluation of
activities.”

Management Comments: The mission agrees with the recommendation. The Chief of
the Office of Population and Health will communicate to all AOTRs regarding the need to
document all quarterly review meetings with partners. In addition, the mission is in the
process of developing an integrated program field monitoring tool that includes limited
data quality testing on selected indicators. The mission will explore the possibility of
outsourcing DQA services to ensure compliance with USAID data audit requirements.
The target date for completion of this action is June 2011.

In addition to USAID/Kenya’ Management Comments above, we have two comments
regarding the audit report. These comments are presented below:

General Issue 1: On page 5, Tables 2 and 3 refer to “FHI Target” and “PATH Target”.

Management Comments: Please note specifically which document(s) was used to
produce this information.

General Issue 2: On page 10, second paragraph the report reads: “This suggests that
they were unaware of changes that may have been made by USAID and/or Macro
International after submission of their report.”

Management Comments: Neither USAID nor Macro International have access rights to
the data entry module in the KePMS. For this reason, USAID and Macro International
merely identify data limitations during the data cleaning process, discuss them with the
partners and, once finalized, partners are asked to revise the reported results and re-
upload. USAID and Macro International do not make changes.


                                            27 

U.S. Agency for International Development 

        Office of Inspector General 

       1300 Pennsylvania Ave., NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
